HHS/OIG, Audit - "Review of Indiana Medicaid Disproportionate Share
Hospital Eligibility for July 1, 2000, Through June 30, 2003," (A-05-06-00045)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Indiana Medicaid Disproportionate Share Hospital Eligibility for July 1,
2000, Through June 30, 2003," (A-05-06-00045)
May 13, 2008
Complete
Text of Report is available in PDF format (3.07 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For the period July 1, 2000, through June 30, 2003, the
State paid $142.3 million ($88.2 million Federal share) to three State-owned
psychiatric hospitals that were not eligible to receive Medicaid
disproportionate share hospital (DSH) payments.  The hospitals did not meet
Federal Medicaid eligibility requirements because they did not comply with
Medicare conditions of participation (CoP) requirements.  Generally, hospitals
demonstrate compliance with basic Medicare CoP through an accreditation process
performed by the Joint Commission on Accreditation of Healthcare Organizations
(JCAHO).  Psychiatric hospitals must also meet additional staffing and medical
records requirements.
We recommended that the State refund $88.2 million to the Federal Government for
the Medicaid DSH payments made to the three ineligible State-owned psychiatric
hospitals for the audit period and ensure that Medicaid DSH payments are made
only to eligible hospitals.  The State disagreed with our finding and
recommendations.  The State agency believed that Medicare and Medicaid CoP had
been met for the facilities through a combination of JCAHO accreditation and the
Medicaid survey and certification process, including the special CoP for
psychiatric hospitals.  After reviewing the State agencys comments, we maintain
that our finding and recommendations are valid.